              U.S. Department of the Interior
                  Office of Inspector General



   HISTORY COLLECTION IN JEOPARDY
      AT HARPERS FERRY CENTER




Report No. Y-EV-NPS-0004-2008       July 2008
W HY W E P ERFORMED T HIS E VALUATION

We initiated this evaluation in response to concerns raised by an NPS investigator. We
evaluated Center management to determine whether museum artifacts are adequately
safeguarded. For purposes of comparison, we visited the Gettysburg National Military Park
(NMP) and the Chesapeake and Ohio (C&O) Canal National Historical Park (NHP) to assess
the management of their museum collections.

B ACKGROUND ON H ARPERS F ERRY C ENTER                                                  AND THE
NPS H ISTORY C OLLECTION

The Harpers Ferry Center was created in 1970. It is distinct from the Harpers Ferry National
Historic Park. The Center helps other NPS entities present items of natural and cultural
significance to the public by providing exhibit planning, design, and development services.
Center personnel also provide preservation services for museum property belonging to other
NPS entities. The Center is one of six National Program Centers that provide technical and
support services to regions and park units. The six centers, including Harpers Ferry Center,
are part of NPS headquarters.

Most of the museum artifacts housed at the Center are part of the NPS History Collection.
The late former NPS Director Hartzog established the Collection in 1971 to illustrate and
document NPS history and culture. The Collection is divided into three main groups, each
including items of historical and/or cultural significance:

             Historic Photographs — This group consists of historic photographs (prints,
             negatives, and slides), moving images (film and video tape), and associated records
             dating from the mid-19th century to the present. The group includes works by well
             known photographers, such as Ansel Adams, as well as by private photographers. It
             also includes material created by NPS employees, such as film shot during the 1920s
             by the second NPS director. The Service estimates that 3 to 5 million items comprise
             this group1. Only a small portion has been cataloged2.




1
 This estimate is from FY 2004. We used this estimate because estimates in the Collection Management Reports include both Historic
Photographs and Archives (non-photographic) under archival items
2
    Due to uncertainties regarding the numbers provided by NPS, we were unable to determine the portion of the group cataloged.


                                                                      1
             Archives (non-photographic) — This group consists of documents and audio tapes
             that largely concern NPS history. Material includes, but is not limited to:

                  a. Records and journals of Civil War General Abner Doubleday;

                  b. Personal and office papers of former NPS officials, including those of a chief
                     historian3, a chief curator4, and an NPS director5;

                  c. Tapes and tape transcripts from NPS oral history projects;

                  d. Miscellaneous materials related to NPS history and projects, including the
                     Bicentennial Celebration and conferences from 1911 to the present; and

                  e. Rare books on a variety of topics that are valued for the significance of their
                     content, scarcity, imprint, date of publication, or physical characteristics.

                  The size of this group has been estimated at over 200,000 items. Only a small
                  portion has been cataloged.

             Cultural Objects — This group consists of NPS ranger uniforms — including the
             first NPS uniforms and the uniform of the first female NPS director — and related
             insignia and accoutrements. It also contains other materials documenting NPS history
             and culture. A 2007 estimate places this group at approximately 7,500 objects.
             About 40 percent has been cataloged.

W HAT W E L EARNED

During our evaluation, we learned that:

       ¾ Lax security and poor physical conditions at storage facilities are compromising
         museum artifacts at Harpers Ferry Center;
       ¾ Poor documentation hinders Center ability to detect damage, destruction, or loss of
         compromised artifacts; and
       ¾ The usefulness of the Collection for research and cultural education is adversely
         affected by the poor facility conditions and documentation.



3
    Ronald F. Lee Papers, 1947-1972.
4
    Harold L. Peterson Papers, 1963-1977.
5
    Hartzog Directorate Collection, 1964-1970.


                                                     2
I NADEQUATELY S ECURED           AND   H OUSED A RTIFACTS

The NPS History Collection is housed at the Anthony Library in Harpers Ferry, WV, and at
the Willow Springs facility in Charlestown, WV. Most of the Archives (non-photographic)
group is located at the Anthony Library, and the Historic Photographs and Cultural Objects
groups are located mainly, if not entirely, at the Willow Springs facility. Willow Springs
also houses museum items undergoing preservation treatments for other NPS entities.

Neither facility offers adequate security or a proper environment. By any measure, however,
the lax security and poor physical conditions found at the Anthony Library fail to meet
museum standards for housing collections. While the Willow Springs facility provides a
safer and more secure environment, we identified some areas for improvement there, as well.

Anthony Library

In terms of security, the Anthony Library — which also circulates material — does not
maintain tight control over facility access. For example, Center personnel were unaware of
how many people had keys to the Library. Individuals known to have keys include Library
personnel, facility maintenance staff, and curatorial staff. In addition, the layout of the
Library makes it virtually impossible for the librarian to effectively monitor individuals.
Entry can be gained either through the main entrance or by a lower-level side entrance to the
basement.

Security is further compromised because rare books are intermixed with regular circulating
material; they are not maintained in sequestered areas. In fact, Center personnel informed us
that some rare books from the Archives (non-photographic) group have mistakenly been
included in the circulating collection and were actually checked out. In such instances,
significant pieces of American history could be forever lost.

With regard to physical conditions at the Anthony Library, Center personnel have observed
and documented, as we did, temperature, humidity, vermin, and storage problems. The
problems appear to be insurmountable.

Inadequate temperature and humidity controls. We found that the Anthony Library
building cannot maintain the temperature and humidity levels required by NPS policies for
housing museum collections. Further, staff members have not routinely kept temperature and
humidity records.




                                              3
Maintaining appropriate and consistent temperature and humidity conditions is essential in
conserving museum artifacts. Too high a temperature or too low a humidity level can result
                                            in paper becoming brittle; too high a humidity
                                            level can result in mold growth. Abrupt
                                            changes in temperature can be equally
                                            destructive. Temperatures in the Library
                                            fluctuate based upon outside temperature, and
                                            humidity is largely unregulated. According to
                                            Center personnel, the attic can become
                                            unbearably hot in the summer. During our site
                                            visit, we noted drastic temperature variations
                                            between the attic and basement levels of the
                                            Library.

                                             In the basement, we saw Collection items
    Water damage and mold in the Library
                 OIG staff photo             exposed to extremes in temperature and
humidity because they were stored next to steam pipes in the building’s maintenance room.
We also saw mold and exposed wires in the basement, which can threaten human health, as
well as the Collection.

Dangerous insect and rodent infestations. Evidence of both insect and rodent
infestations was apparent. Center personnel have observed, as we did, that cleaning
throughout the Library is inadequate. This most
likely led to and has perpetuated both
infestations, which endanger museum artifacts.

We saw remnants of a rodent nest in a drawer
containing maps and insect bodies lining window
sills. Though we could not know how current the
insect infestation actually is, we saw that sticky
traps had not been changed in quite some time.
There were no records of regular, recurring trap
monitoring, which is necessary to assess the
degree of any infestation.                             Dead insects line Library window sills
                                                                    OIG staff photo

Although an Integrated Pest Management Plan has been written, it clearly has not been
adequately implemented at the Library.




                                              4
Overcrowded and unorganized storage. The state of storage at the Anthony Library
hinders the ability of Center personnel to manage and retrieve items in the Collection,
making usability of the Collection difficult.

                                             We found Collection items, some of which date
                                             to the 1800s, stuffed into every conceivable
                                             spot. Boxes, books, and documents were
                                             stacked on top of shelves and tables and on the
                                             floor, with little regard to access and use. Many
                                             work tables were covered with books, maps,
                                             photos, and other materials. In fact, the weight
                                             of material has bowed the shelves in several
                                             cabinets and caused the attic floor to sag and
                                             become uneven. Finally, boxes were blocking
                                             some heating, ventilating, and air conditioning
  Blocked windows and vents at the Library
                OIG staff photo              system vents.

The Collection stored at the Anthony
Library needs a more secure and
environmentally sound facility. If a
permanent move cannot be made
quickly, the Willow Springs facility
offers an interim solution. The NPS
“Park Museum Collection Storage Plan”
recommends that the NPS History
Collection be consolidated at the Willow
Springs facility but provides no date for
action. Movement to the Willow
Springs facility would require additional
space at that facility since the current
storage area at Willow Springs is already          Overcrowded Library work environment
overcrowded.                                                    OIG staff photo




  WE RECOMMEND THAT NPS:
  1. Move, as soon as possible, the Collection artifacts from the Anthony Library to a
     more secure and environmentally sound location.




                                              5
Willow Springs

We found that the Willow Springs facility is safer and more secure than the Anthony Library,
although it also suffers from a number of problems. We believe¸ however, that conditions at
Willow Springs, unlike those at the Library, can be readily improved. With regard to
security issues at the Willow Springs facility, we found that:

   ¾ No one knows how many people have keys to the Collection’s storage area. We were
     told that the locks to the Collection’s storage area would be changed but did not
     confirm that the work was done.

   ¾ Keys were left in a number of cabinets in
     the Collection’s storage area; several
     cabinets did not lock.

   ¾ Artifacts in the Cultural Objects and
     Historic Photographs groups are stored in
     the same room. Therefore, anyone having                      Unsecured storage cabinets
                                                                         OIG staff photo
     access to one group has access to both.

These security issues are especially troublesome because between 25 and 30 visitors a month
tour the cultural objects, with up to 15 visitors in a single group. In addition, researchers and
others access the photo archives. In these circumstances, visitors could easily remove
artifacts.

Regarding environmental conditions, we observed inadequate temperature and humidity
                             control and monitoring. For example, we found that records
                             of temperatures and humidity in storage rooms and
                             temperatures of a freezer used to store nitrate film had not
                             been kept since July 2007. Further, the FY 2007 facility
                             checklist completed by the Center shows that appropriate
                             temperature and humidity levels for photographs are not
                             being maintained.

                                 We also saw an improvised drainage system for the freezer
                                 used to store nitrate films. While clever and functional, the
                                 system directs overflow to a Gatorade bottle. Lack of proper
  Improvised drainage system     discharge could lead to water damage or freezer malfunction
          OIG staff photo
                                 and damage to Collection items.



                                                6
 WE RECOMMEND THAT NPS:
 2. Resolve the security and environmental problems identified at the Willow Springs
    facility.



Y EARS O F P OOR D OCUMENTATION

Documentation of the Collection at Harpers Ferry Center has been lacking for years. As the
NPS museum registrar stated in a 2002 e-mail, “It’s hard to come up with recommendations
for collections management when you don’t even know what you have or where it’s located.”

Unknowable Losses and Damage

The registrar’s observation is relevant today for material housed at both the Anthony Library
and at Willow Springs. For the most part, Center officials and staff still do not know what
they have or where to find items that are cataloged. As a result, they have no idea what
losses the Collection may have suffered or whether artifacts have been damaged.

Cataloging. According to Center reports, only about 11 percent of the items in the
Collection had been cataloged by the end of FY
2007. Further, changes in the estimated size of the
Collection make it difficult to determine what
                                                          Cataloging is the process of
                                                          recording detailed information
progress has been made. For example, the number of        about individual items or
items classified as cataloged in the Center’s             groups of related items.
Collection management reports increased from              Catalog records tell you what
69,237 at the end of FY 2004 to 444,641 at the end of     objects you have, their
FY 2007. However, the Collection’s estimated size         condition, and their location.
in the same reports, over the same time period,
increased from 272,615 items to 4,196,729 items.          Accessioning is the critical
                                                          first step in the process of
Accordingly, the reported percentage of cataloged
                                                          establishing accountability for
items dropped from 25 percent to 11 percent.              museum items by
                                                          documenting legal custody and
We do give the Center credit for increasing the           ownership and how the items
number of items cataloged. With the exception of          were acquired.
photograph cataloging, however, efforts have been
intermittent. For example, photographs represent 66
percent of the increase in items cataloged between FY 2004 and FY 2007. The increase
resulted from on-site support provided by a contractor and the NPS senior archivist. The

                                              7
remaining 34 percent was cataloged inconsistently. For example, the Center reported
cataloging over 1,000 cultural objects in FY 2004 but less than 100 in FY 2007. Similarly,
the Center reported cataloging 250,000 Historic Photographs and Archives (non-
photographic) groups items in FY 2007 but only 400 in FY 2005.

According to Center personnel, some catalog records are incomplete. We confirmed their
assessment and estimate that about one in five electronic records lacks sufficient information
to locate the item or items cataloged. Often the only detail on the location is the room, with
no information provided to locate the item within the room. In some cases, the location is
noted as “unknown.” We also observed that museum items were not always marked with
their accession and catalog numbers.

Accessioning. Long-standing problems at Harpers Ferry Center with accession records —
which may consist of a single item or of thousands or even millions of items each — have
contributed to the poor cataloging. The accession records often lack a detailed description of
the accession’s contents, making it difficult to match items in the Collection to the related
accession. In addition, source information is often missing, making it difficult to trace the
accession. For example, some accession records included only the name of the donor but no
official donation form. In fact, according to the Center’s FY 2007 Collection Management
Report, 96 of 174 sampled accession records lack adequate documentation of NPS
ownership.

Not surprisingly, given the poor documentation, Center personnel have had great difficulty
with the required annual museum property inventories. In FY 2007, Center staff could not
locate well over half of the items associated with a random sample of 174 accession records,
despite spending considerable time on the inventory. Further, they were unable to locate 5
of the items in a separate sample of 174 catalog records. Results for previous fiscal years are
similar. The Center has no way to determine whether these items are lost, stolen, damaged,
or somewhere in the overcrowded facilities.

Long History of Problems

Reports of the problems with NPS History Collection management and suggestions for
corrective action, both internal and external, date back to at least 1991 (see Appendix 2).
Unfortunately, limited progress has been made, which we attribute to the Center’s mission
and its location within the NPS organization.

Mission. We believe the Collection has not been a management priority — we noted that
the Harpers Ferry Center Service Plan (June 2007) mentions the NPS History Collection only
once, when it identifies the Center as custodian of the Collection — because it does not

                                               8
directly relate to the Center’s mission. The Center’s primary mission is to serve as a support
unit to other NPS entities by providing exhibit planning, design, and development
(interpretative) services. This role may explain, in part, why the Center has not devoted the
staff resources or expertise needed to appropriately manage the Collection.

Location. Center personnel indicate that their ability to get support and funding for the
History Collection has been limited because the Center does not fall under a region. Most
museum collections are associated with park units, which fall under regional directors. In
contrast, the Center reports directly to the Associate Director for Partnerships and Visitor
Experience, who does not have responsibilities for any other museum collections. While
Center staff members do fulfill their missions of providing interpretative and preservation
support, they have not adequately supported their own Collection.

While NPS must determine who the custodian of the NPS History Collection should be, the
limited improvements made in Collection management and the disconnect between the
Center’s mission and the Collection’s purpose should inform that determination. Further,
different parts of the Collection may be best managed by different entities, which may or
may not be located within NPS. The National Archives and Records Administration
(NARA) recommended in 1991, for example, that portions of the Collection’s Historic
Photographs group be transferred to it. Although NPS did not agree with this
recommendation at the time, such a transfer may deserve reconsideration.


  WE RECOMMEND THAT NPS:
  3. Determine the appropriate entity or entities to control the NPS History Collection.




B EST P RACTICES       AT   O THER NPS O RGANIZATIONS             WITH    M USEUM
C OLLECTIONS

We visited the museum collections at the C&O Canal NHP and the Gettysburg NMP to
provide a basis for comparison. Our visits to both of these sites were limited in scope so we
focused primarily on the facilities’ accessioning and cataloging processes. At both C&O
Canal NHP and Gettysburg NMP, we identified issues similar to those found at Harpers
Ferry Center.

While the C&O Canal NHP has a backlog of 10,000 uncataloged photos, unlike the Center, it
is in the process of implementing a corrective action. We found that the primary concern at
this NHP is, rather, the lack of adequate storage facilities for museum items. Again, unlike at

                                               9
the Center, this problem is being addressed. The Storage Facility Plan for all of the National
Capital Region stipulates that all of the C&O Canal NHP museum property is to be moved to
regional storage facilities.

At Gettysburg NMP, we found a history of cataloging problems much like those we saw at
the Center and the C&O Canal NHP. However, Gettysburg NMP has fully implemented an
effective process (defined in the Park’s Scope of Collection Statement). We tested the
process and found that each item we requested was easily identifiable and traceable.

Finally, both parks, especially Gettysburg, have devoted considerably greater resources to
their museum collections. Gettysburg has partnered with a nonprofit organization, the
Gettysburg Foundation, which provided funding for a new museum. Most importantly, both
Gettysburg NMP and C&O Canal NHP have been able to capitalize on the expertise within
their regional museum centers. The discrepancy between how these two parks and the
Harpers Ferry Center are able to address their problems highlights the need to re-examine the
question of who should house the NPS History Collection. Whoever the custodian of the
NPS History Collection will be could look to the Gettysburg NMP and C&O Canal NHP for
best practices.


  WE RECOMMEND THAT NPS:
  4. Develop a detailed plan, with timelines and staffing levels, for documenting and
     cataloging Collection items. Individuals with appropriate expertise need to be
     involved in the preparation of the plan, and the plan implementation needs to be
     monitored.



C ONCLUSION

NPS should take several actions to address the safety, environment, and documentation of the
NPS History Collection at the Harpers Ferry Center. First, the Service needs to stabilize the
situation by moving the Collection items stored at the Anthony Library to a more
environmentally sound and secure facility. Second, the Service needs to resolve the
environmental problems at Willow Springs. Third, NPS needs to consider the purpose of the
NPS History Collection and the question of who should have custody of it so as to both
preserve the Collection and promote its use. Fourth, detailed plans to document and catalog
Collection items — which depend upon the ultimate custodian of the Collection — must be
developed and implemented.



                                              10
                                                                                  Appendix 1

S COPE   AND   M ETHODOLOGY U SED

We performed our evaluation in accordance with the President’s Council on Integrity and
Efficiency and the Executive Council on Integrity and Efficiency “Quality Standards for
Inspection.” The evaluation focused on the Harpers Ferry Center, and we reviewed controls
over NPS museum artifacts there and at selected museums. We believe that the work
performed provides a reasonable basis for our conclusions and recommendations.

As part our evaluation, we:

   ¾ Obtained a general understanding of Department of the Interior and NPS regulations
     and policies governing museum artifacts;

   ¾ Reviewed prior reports (we, as well as the U.S. Government Accountability Office
     and NARA, have reported previously on problems with maintenance of NPS museum
     property);

   ¾ Visited the Harpers Ferry Center, C&O Canal NHP, and Gettysburg NMP;

   ¾ Interviewed personnel responsible for museum artifacts at the three sites;

   ¾ Reviewed documentation and reports internal to the three sites visited; and

   ¾ Performed other work that we considered necessary.




                                            11
                                                                               Appendix 2

S ELECT R EPORTS       ON   C ENTER C OLLECTION M ANAGEMENT P ROBLEMS

We list below selected reports that detail problems with museum property at Harpers Ferry
Center.

   ¾ National Archives and Records Administration — “A NARA EVALUATION: The
     Management of Audiovisual Records in the National Park Service,” Washington, DC,
     May 1991.

   ¾ Internal Center report: “Status Report May 22, 2001 — NPS Cultural Material
     Collection.”

   ¾ “The National Park Service History Collection: A Preservation Plan of Action,” 2004.
     The report is based upon advice from the NPS museum registrar and the program
     manager for the NPS Museum Management Program.

   ¾ “DRAFT — Management Review for Department of Conservation, Harpers Ferry
     Center — July 25–29, 2005,” NPS chief curator.




                                            12
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone:Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free            800-424-5081
                  Washington Metro Area        703-487-5435

By Fax            703-487-5402

By Internet      www.doioig.gov/hotline
